r'
2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefe.com

No.
LIBBY A. DEMERY,
Petitioner,
v.
DEPARTMENT OF ARMY,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
MANDAMUS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 3791 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 25th day of November, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NQTARY-SUtt of Nifaraska I

QudstMO--' d'.

RENEE J.QOSS
I
BSgJfigg* MyComm. Exp. September5,20231
Notary Public

Affiant

40075

